                          UNCLASSIFIED

       United States Department of State
     and the Broadcasting Board of Governors
               Office of Inspector General




             Report of Inspection


    The International

  Broadcasting Bureau’s

Greenville, North Carolina,

   Transmitting Station

Report Number ISP-IB-05-69, August 2005




                              IMPORTANT NOTICE
 This report is intended solely for the official use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Office of Inspector General. No secondary distribution may be
 made, in whole or in part, outside the Department of State or the Broadcasting
 Board of Governors, by them or by other agencies or organizations, without prior
 authorization by the Inspector General. Public availability of the document will
 be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
 Improper disclosure of this report may result in criminal, civil, or administrative
 penalties.



                           UNCLASSIFIED

                                         UNCLASSIFIED





                            TABLE OF CONTENTS
KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    3

     History . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     3

     Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     5

PROGRAM MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     7

     Concerns Over Transmitter Frequency Changes . . . . . . . . . . . . . . . . . . . . .                                     7

     (b) (2)(b) (2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                8

     Leadership Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              8

PROGRAM PERFORMANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

           Satellite Interconnect System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

           Commercial Power and Diesel Fuel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

           Equipment Upgrade and Modernization . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

HUMAN RESOURCES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 15

           Right Staff, Size and Mix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

           Relations Between Labor and Management . . . . . . . . . . . . . . . . . . . . . . . . 16

           Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       19

    Maintenance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               19

    Inventory Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                21

    Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    22

    Emergency Drills . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                23

R ECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

PRINCIPAL OFFICERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

APPENDIX B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

APPENDIX C . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

APPENDIX D . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37





                                             UNCLASSIFIED

                                         UNCLASSIFIED





                              KEY JUDGMENTS

     •	 Although the Greenville Transmitting Station's two sites, sites A and B,
        have virtually identical physical plants, they have notable differences.
        Historically, the two sites have been managed as if they were stand-alone
        facilities. As a result, differences in operational decisionmaking, particularly
        at the shift supervisor level, have resulted in different solutions to common
        problems regarding identical equipment and to differences in day-to-day use
        of the transmitters, which contributed to greater wear and tear on transmit-
        ters at site A.

     •	 The current station manager deserves praise for his decisions, initiatives,
        and style of management. These have moved the station forward and have
        positively affected morale, despite the January 2005 announcement of
        planned budget and staff reductions.

     •	 Additional work remains to be done to maintain and upgrade station facili-
        ties. The reductions being made by the Broadcasting Board of Governors
        (BBG) could mothball or close site A or site B. To avoid wasting taxpayers'
        money on upgrading a facility that may be put out of service, the Interna-
        tional Broadcasting Bureau (IBB) needs to decide soon about the future of
        the two sites.

     •	 Sites A and B face preventive and scheduled maintenance challenges, but
        site A has suffered much more wear and tear. OIG learned that much of
        the maintenance at both sites is corrective and reactive, rather than preven-
        tive.

     •	 The Greenville Transmitting Station has transmitters that are serviceable
        but also are aging and obsolete, and require considerable maintenance. Site
        A or B may be a candidate for a modernization and equipment upgrade.
        Complete modernization and automation would allow for some cost-
        effective benefits, such as manpower reductions, reduced operating budget,
        minimized need for maintenance and parts, and reduced fuel and power
        costs.




OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   1 .

                                         UNCLASSIFIED
                                               UNCLASSIFIED



                  This inspection assessed the general operations of IBB's Greenville's Transmit-
              ting Station, including its program management, program performance, and man-
              agement controls. The inspection took place in Washington, DC, between January
              3 and 7, 2005, and in Greenville, North Carolina, between January 10 and 14,
              2005. It was conducted in accordance with quality standards for inspections
              prescribed by the President's Council on Integrity and Efficiency. Louis McCall,
              Cassandra Moore, and Maria I. Hart conducted the inspection.

                  A previous OIG report that discussed the Greenville Transmitting Station was
              Review of the Broadcasting Board of Governors' Transmission Delivery System (OIG Report
              No. 00-IB-033, September 2000).




2 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                               UNCLASSIFIED
                                         UNCLASSIFIED





                                          CONTEXT



HISTORY OF THE GREENVILLE TRANSMITTING STATION
                                                                   The IBB's Greenville
                                                               Transmitting Station,
                                                               located about 300 miles
                                                               from Washington, DC,
                                                               includes three sites (A, B,
                                                               and C). The broadcasting
                                                               complex was designed
                                                               with two nearly identical
                                                               and independent trans-
                                                               mission sites, sites A and
                                                               B, which are both located
     Figure 1: Site A, Greenville Transmitting Station         east of Greenville, North
                                                               Carolina. Site A, which
comprises 2,821 acres, is near the community of Bear Grass in Beaufort County;
site B, with 2,715 acres, is near the community of Blackjack in Pitt County; and
site C, which originally had 644 acres, is near Farmville, North Carolina. President
John F. Kennedy formally dedicated the Greenville Transmitting Station on Febru-
ary 8, 1963. In 1968, the station was rededicated as the Edward R. Murrow Trans-
mitting Station in honor of the director of the former U.S. Information Agency
                                                       (USIA). Today, the station is
                                                       generally referred to as the
                                                       Greenville Transmitting Station.
                                                       (See Figure 2 for station loca-
                                                       tions.)

                                                                        All of the Greenville Trans-
                                                                    mitting Station sites began
                                                                    operation in 1963. Sites A and
                                                                    B each used three General
     Figure 2: Map showing Greenville site locations
                                                                    Electric 250 kilowatt (kW)
                                                                    transmitters, three Continental


OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   3 .

                                         UNCLASSIFIED
                                               UNCLASSIFIED





              500 kW transmitters, and three Gates 50 kW transmitters and a Technical Material
              Corporation 10 kW transmitter. In 1985, the four small Gates transmitters were
              removed to make space for four 500 kW transmitters that had unique, contempo-
              rary designs and were installed to determine the requirements for the Voice of
              America's (VOA) new stations. The four included the Continental and Marconi
              transmitters that were placed at site A and the Brown Boveri and Allgemeine
              Elektricitats-Gesellschaft transmitters that were placed at site B. The four were all
              accepted into service in 1986 and remain in place, adding to the eclectic mix of
              transmitters that must be serviced by the station.



                              Table 1: Greenville Transmitting Station Capital Costs




                  The VOA studios in Washington, DC, are connected with the Greenville
              Transmitting Station via a microwave system that employs eight relay points that
              terminate at site C, known as the receiver site. That site closed on March 31,
              1995, due to budget reductions and changes in technology.

                  In 1971, in response to the initiative of a local congressman, a private
              agribusiness firm was permitted to bury at site C the toxic waste generated from the
              clean up of a fire at a chemical storage warehouse, provided it agreed to pay the
              costs of any clean up at site C. (As the toxic waste was entombed in cells, U.S.
              Environmental Protection Agency representatives were present as observers.) In
              1994, however, the General Services Administration sold 594 acres of the site to
              the state of North Carolina and to local governments, retaining 55 acres that
              include the toxic waste site. The BBG, USIA's successor, cannot under North
              Carolina regulations dispose of site C without first cleaning up the toxic waste site.




4 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                               UNCLASSIFIED
                                         UNCLASSIFIED




     In 1987, site C became a gateway earth station for the Global Satellite Intercon-
nect System (SIS). However, USIA in 1998 placed send-and-receive satellite dishes
on the roof of its Cohen Building headquarters in Washington, DC, taking over the
gateway function. The Greenville Transmitting Station then became a receive-only
station that can uplink to the SIS, as a backup to the headquarters site.

   From January 1988 until mid 1997, the Greenville Transmitting station was the
IBB network training facility for new Foreign Service officers (FSO), who spent six
months in training at the station prior to being sent overseas.



STATION MISSION
     The Greenville Transmitting Station provides shortwave broadcasts for U.S.
government-funded, nonmilitary, international broadcasting, and it serves as a
standby alternate SIS gateway to uplink programming, should the Washington, DC,
gateway become inoperable or inaccessible. The station is also a backup facility for
the uplinking of programming to the Atlantic Ocean Region (AOR) satellite and as
a primary facility for the return link of that satellite. The main target areas for the
station's shortwave broadcasts are Latin America, Cuba, the Caribbean, North
Africa, and Africa. The station's broadcast customers are the Office of Cuba
Broadcasting, VOA, the British Broadcasting Corporation, and Greece's Elliniki
Radiofonia Tileorasi.




OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   5 .

                                         UNCLASSIFIED
                                               UNCLASSIFIED





6 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                               UNCLASSIFIED
                                                           UNCLASSIFIED





                                          PROGRAM MANAGEMENT

    Although the Greenville Transmitting Station sites A and B have virtually
identical physical plants, they have notable differences and each has a different
culture. Staff who transferred from one site to the other spoke of a difficulty in
being accepted in their new surroundings. At the time of OIG's inspection, the
upper management team of three FSOs had been at the station for less than six
months.



CONCERNS RAISED OVER TRANSMITTER FREQUENCY
CHANGES
     Historically, the two sites have been managed as if they were stand-alone
facilities. As a result, differences in operational decisionmaking, particularly at the
shift-supervisor level, produced different solutions to common problems with
identical equipment as well as differences in the day-to-day use of transmitters.
One decision involved more frequent tuning of the transmitters at site A, which
caused greater wear and tear on its transmitters. Some of the transmitters at site A
handle as many as four frequency changes a day, which strains the equipment.




          Table 2: Greenville Station’s Frequency Changes

                                                  Greenville Transmitter Frequency Changes
              Number of changes per day




                                          6
                                          4
                                                                                             Site A (GA)
                                          2                                                  Site B (GB)
                                          0
                                              1    2   3    4    5   6    7    8
                                              Corresponding Transmitter Number at
                                                          Sites A & B




OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   7 .

                                                           UNCLASSIFIED
                                               UNCLASSIFIED




              (b) (2)(b) (2)(b) (2)
                 (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
              (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
              (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
              (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
              (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
              (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
              (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
              (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
              (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
              (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
              (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
              (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
              (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
              (b) (2)(b) (2)



              STATION MANAGER SHOWS LEADERSHIP AND INITIATIVE
                   Although he had only been at the station for less than four months at the time
              of the inspection, the station manager has made praiseworthy decisions and taken
              initiatives and management actions that have advanced the station and positively
              affected morale. In fact, the station manager received high and nearly universal
              praise from staff at all levels at sites A and B. One employee said the station
              manager "has done more to turn this place around than [anyone] in the last 10
              years." Another called the manager "exceptional." Yet another said he was "the
              best of all the managers we have had here." Several employees also spoke of the
              manager's fairness, and how he goes out of his way to show appreciation.

                  The station manager has also completed some projects and made progress on
              others that had lain dormant for years. For instance, although the station's tower
              lighting originally did not meet Federal Aviation Administration requirements, the
              needed new lighting had sat at a warehouse for 10 years. The station manager got
              the lights installed. In addition, new boilers for heating sites A and B sat in crates
              for over a year, waiting to replace the boilers that served the sites since 1963. The
              current station manager has moved to replace the old boilers by getting an engineer-
              ing firm in November 2004 to provide the statement of work that will lead to




8 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                               UNCLASSIFIED
                                         UNCLASSIFIED




bidding of the installation contract, scheduled for the end of the current heating
season. The station manager also took steps to reduce the station's 875-page safety
plan to a size that would be practical and could be used with ease. He also solved
some switching gear problems that had led employees to use some unorthodox
work-a-round solutions. He did so by contracting for repairs with the local power
company, which had expertise in switching.

    Although the station has had labor grievances and equal employment opportu-
nity complaints filed against its management, no new complaints have been filed
since the station manager arrived. One employee, who had filed a complaint in the
past, told OIG that, since the station manager arrived, "that stuff is not tolerated."

    Additional work remains to be done to maintain and upgrade the station. The
reduction actions being taken by BBG/IBB also could mothball or close sites A or
B. To avoid wasting money on upgrades at a facility that may be put out of ser-
vice, IBB needs to make a decision soon about the future of the two sites. Such a
decision, made soon and communicated transparently, would also aid in determin-
ing how the post-reduction workforce should be structured and would end the
uncertainty that hurts morale.


    Recommendation 1: The International Broadcasting Bureau should decide
    on the future use of the Greenville Transmitting Station's sites A and B.
    (Action: IBB)


    The BBG responded to a draft of this report by saying that IBB Engineering
had requested a thorough review of its staffing levels. In addition, the station
manager had completed a detailed analysis of electrical energy costs at sites A and
B and a comprehensive assessment of equipment and systems. As a result, IBB
Engineering intended to continue to shift more transmission from site A to site B as
resources permitted and in accordance with the BBG's mission.




OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   9 .

                                         UNCLASSIFIED
                                                UNCLASSIFIED





10 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                                UNCLASSIFIED
                                         UNCLASSIFIED





                  PROGRAM PERFORMANCE

     The Greenville Transmitting Station fulfills its mission and maintains a high
availability rate, a measure of how often its transmitters are in operation. The
station is an earth station for the SIS and also provides high-power shortwave
transmission to Central and South America, Haiti, West and Southern Africa, Cuba,
and the Northeastern United States. Although the power and fuel costs of sites A
and B differ, equipment upgrades and a modernization program would reduce
operating costs.



SATELLITE INTERCONNECT SYSTEM
     Plans for the Greenville Transmitting Station's earth station began in December
2001, and the earth station was tested on April 2002. The earth station's software
can be remotely activated and programmed. To monitor and maintain the earth
station, an employee at site A has been trained as a certified earth station operator.

    The earth station is a backup to the SIS gateway, but presently only downlink
programs from the satellite. Condensed programming packages are transmitted to
the Domstat and New Skies satellites by the Network Control Center at the Cohen
building in Washington, DC, and transmissions sent down by the satellites to the
Greenville Transmitting Station are automatically screened to eliminate duplicate
programming. The primary program feed is a microwave link operating at 10 watts,
powerful enough to travel 32 miles through early morning fog and across the Tar
River from site A to site B. Also sent over this microwave link are computer
functions, the Internet, programming, phone calls, and Royal Thai government
programming, which is received over the Internet in Washington and sent to
Greenville on a T1 (broadband) line.




OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   11 .

                                         UNCLASSIFIED
                                                UNCLASSIFIED





                                                                                                        Figure 3: Transmitting Station’s Primary
                                                                                                        Satellite and Program Distribution




12 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                                UNCLASSIFIED
                                         UNCLASSIFIED



COMMERCIAL POWER AND DIESEL FUEL
     The Greenville Transmitting Station has identical generators at sites A and B.
The generators can produce 1.8 megawatts of electricity in case of a power outage
or a day when the cost of electricity triples. (On such days, the power company
warns the station, so that it can use the generators to operate below the price-
trigger. Should the site not do so, it would pay higher rates for the rest of the year.)
The generators use diesel fuel and are a money-saving option for supplementing the
power for site A, which makes greater use of its generator than does site B. Each
site has maintenance contracts with separate commercial power companies, con-
tracts that were handled out of Washington, DC. (Maintenance to the site B
generator is fully covered by the contract with the power company.)

    The Greenville Transmitting Station is buying the generators under a lease-
purchase agreement. The site A generator saved the plant as much as $10,000 a
month in electricity costs and must be used to manage the power load. However,
the site B generator is only an emergency backup and is tested periodically. When
contending with extended power outages, the station seeks program-substitution
assistance from the Network Control Center.



     Table 3: 2004 Greenville Transmitting Station Generator Statistics




1
 Power cost savings are calculated at the contracted base rate. However, real savings at site A are at least
three times that for kilowatt hours actually used plus much greater savings by avoiding a huge jump in the
base rate for the plant site.



OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   13 .

                                         UNCLASSIFIED
                                                UNCLASSIFIED



               EQUIPMENT UPGRADES AND MODERNIZATION
                    The Greenville Transmitting Station has serviceable but aging, obsolete trans-
               mitters and faces considerable challenges in maintaining them. Nevertheless, the
               station has an availability rate of 99.9 percent. The station may be a candidate for
               a modernization and equipment upgrade program, once the future of sites A and B
               is determined. Complete modernization and automation would facilitate some
               cost-effective benefits, such as manpower reductions, reduced operating budget,
               minimized need for maintenance and parts, and reduced fuel and power costs. If
               the status quo is maintained, the station may be unable to locate or fabricate parts
               for maintenance and repair and may find it difficult to train employees to maintain
               out-dated equipment. Power costs may also spike, due to rate exigencies of the
               power company. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
               (b) (2)(b) (2)(b) (2)
                  (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
               (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
               (b) (2)

                   Recommendation 2: The International Broadcasting Bureau should conduct
                   a review to determine whether the transmitters at the Greenville Transmitting
                   Station should be replaced with an automated system. (Action: IBB)


                   Responding to a draft of this report, the BBG concurred with this recommenda-
               tion. IBB Engineering expects to complete its review within six months.




14 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                                UNCLASSIFIED
                                         UNCLASSIFIED





                          HUMAN RESOURCES

    The President's Management Agenda addresses the strategic management of
human capital and the importance of human resource planning. The Greenville
Transmitting Station has staff at two locations, which calls for good employee
relations and constant communication between the management team and the staff.
OIG's review of the transmitting station's human resources effort looked at the size
of the staff and at labor relations and training. OIG made no recommendations,
but did find areas where management could make improvements. One area is
balancing the workload with reduced staff and aging equipment. Another is the
working relationship of the FSOs and Civil Service employees and how the rela-
tionship was affected by the 1994 reduction in force and buyouts. Finally, the
Greenville Transmitting Station has provided little or no training for some of the
staff, in part because of budget cuts.



STATION STRUGGLES TO ACHIEVE CORRECT STAFF, SIZE, AND
MIX
     Greenville Transmitting Station's authorized staffing includes a station man-
ager, two other FSOs, and 40 technical and administrative positions. Because the
station has aging, high-maintenance equipment, balancing the workload is a chal-
lenge. Site A site has three eight-hour shifts and the B site has two eight-hour
shifts, where at least two individuals are on the evening and overnight shifts, the
minimal number for safe operations. With reduced staff, preventive maintenance
during each shift is not always done in a timely manner. The shift supervisors and
radio technicians said the station does not have enough staff to get the mainte-
nance done as quickly as it should and that the station needs to hire and train new
people. However, IBB has announced a buy-out and staff reduction for the sta-
tion. Further, the average age of the staff is high. Over the next five years, about
20 additional staff members, employees with about 494 years of combined experi-
ence, will be eligible for retirement.




OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   15 .

                                         UNCLASSIFIED
                                                UNCLASSIFIED





                         Table 4: Resource Profile of the Greenville Transmitting Station:
                          •    FY 2004 annual budget allotment of $2,098,971
                          •    Capital assets valued at over $34 million
                          •    A staff of 43 authorized direct-hire positions.
                          •    (Currently, 39 technical and administrative positions are filled, plus three FSOs.)
                          •    16 high-powered shortwave Transmitters
                          •    77 antenna systems (34 curtain; 38 rhombics, 3 log period and 2 dipoles)
                          •    1 earth station
               Source: Greenville Transmitting Station Management




               (b) (2)(b) (2)(b) (2)(b) (2)
                  (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
               (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
               (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
               (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
               (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2) . For example, in 2002, due to
               contention with the local union over documented changes to standard operating
               procedures, the station manager rescinded all of the standard operating procedures
               and directed the acting transmitter plant supervisor not to issue policy or instruc-
               tions in this form. He had determined that the standard operating procedures,
               whose audience includes bargaining unit members, were not appropriate for in-
               structing shift supervisors and that shift supervisors' instructions could be provided
               differently.

                  (b)(2)(b)(6)(b)(2)(b)(6)(b)(2)(b)(6)(b)(2)(b)(6)(b)(2)(b)(6)
               (b)(2)(b)(6)(b)(2)(b)(6)(b)(2)(b)(6)(b)(2)(b)(6)(b)(2)(b)(6)
               (b)(2)(b)(6)(b)(2)(b)(6)(b)(2)(b)(6)(b)(2)(b)(6)(b)(2)(b)(6)
               (b)(2)(b)(6)         the Director of the BBG Office of Civil Rights visited
               the station in December 2004 and presented courses in Sexual Harassment, EEO
               for Supervisors, and sensitivity training. (b)(2)(b)(6)(b)(2)(b)(6)
               (b)(2)(b)(6)(b)(2)(b)(6)(b)(2)(b)(6)(b)(2)(b)(6)(b)(2)(b)(6)               .




16 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                                UNCLASSIFIED
                                         UNCLASSIFIED



EMPLOYEES DESIRE TRAINING
    The human capital initiative of the President's Management Agenda supports
staff development through training. OIG found that the current station manager at
Greenville was trying to provide training to employees; many had years of experi-
ence in their positions. In some cases, such as for employees of the transmitter
plant's earth station and for nontechnical employees, there has been little or no
training. The training budget has also been cut and its funds reprogrammed when
the station's fiscal situation was tight.

     Some nontechnical staff said they need to enhance their skills. In the past, they
said, their requests were often denied because training funds were reprogrammed.
Technical staff also complained about the deficiencies of the training program.
Some said the station's upper management did not fully understand the extent of
the need for continuing education, which provides skills and abilities that could not
reasonably be acquired on the job. One administrative staff member said that the
station manager supports training opportunities. Several employees said they need
training to maintain their certifications or run the risk of not staying current. In
one case, an employee's certification was not current, (b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)        The station manager recognizes the value of training and encour-
ages it for all employees.

    IBB's training officer said that, about eight to ten years ago, during the IBB's
Total Quality Management phase, IBB Engineering required that individual training
plans be developed. He added that the requirement did not work well and was
eventually dropped. Currently, the plan also depends on the availability of funds.
The Greenville Transmitting Station does not use Individual Development Plans
(IDP), although some employees would like it to. The BBG's Manual of Opera-
tions and Administration Part V-A, section 424.3, states that anyone who desires an
IDP may have one. OIG suggested that Greenville Transmitting Station make
greater use of IDPs. OIG also found little integration of individual training needs
with the station's training budget. Greater use of IDPs could help strengthen that
link.




OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   17 .

                                         UNCLASSIFIED
                                                UNCLASSIFIED





18 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                                UNCLASSIFIED
                                         UNCLASSIFIED





                  MANAGEMENT CONTROLS

    The station's management controls have improved since the new management
team arrived near the end of 2004. The new station manager has good relations
with IBB headquarters and has placed guidance online, including station manage-
ment instructions, standard operating procedures, and maintenance procedures.
Efforts are underway to implement improved maintenance procedures and to foster
better relations with the union representatives.



STATION FACES MAINTENANCE CHALLENGES
     Sites A and B are both faced with preventive and scheduled maintenance
challenges; however, site A has suffered much more wear and tear. Although site A
is of about the same age and design as site B, the transmitters and other equipment
at site A are in much worse shape. A senior radio technician said preventive
maintenance was difficult to keep up with, in part because of the lack of man-
power and because of poor relations between employees and between employees
and managers. Management confirmed that preventive and scheduled maintenance
is hampered by an April 29, 2002, memo from former station management rescind-
ing the Greenville Transmitter Plant's standing operating procedures and "directed
the acting transmitter plant supervisor not to continue to issue policy or instruc-
tions in this form2." As noted, management had decided that standing operating
procedures were not an appropriate way to instruct shift supervisors.




2
 Memo of April 29, 2002, from station management in response to letter from the chief union steward,
dated April 25, 2002, concerning standard operating procedures 1 through 7.



OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   19 .

                                         UNCLASSIFIED
                                                  UNCLASSIFIED




                 Also affecting preventive maintenance are problems in inventory controls.
               When parts are needed to repair much of the equipment, sometimes the parts are
                                                                 unavailable and technicians
                                                                 must wait until the part ar-
                                                                 rives. Because of the age of
                                                                 the equipment, parts are very
                                                                 hard to locate. It is not un-
                                                                 common for 30 days to pass
                                                                 between submission of a
                                                                 purchase order and the part's
                                                                 receipt. Technicians have had
                                                                 to create many parts.
                         Figure 4: Worn and patched shorting drum      Much of the maintenance
                         (inside of transmitter) at site A.
                                                                   at both sites is more corrective
                                                                   and reactive, not preventive.
               By examining the weekly, monthly, quarterly, semi-annual, and annual inspection
               and maintenance reports (I&M), OIG found evidence at both sites that the semi-
               annual, and annual I&Ms had generally been conducted. However, OIG also found
               that weekly, quarterly, and monthly I&Ms had not been completed. OIG observed
               a pattern of only one I&M report each in the weekly, monthly, and quarterly series
               for each transmitter in 2004. Two transmitters had no record of any preventive
               maintenance in 2004, and some transmitters had no records of weekly, monthly, or
               quarterly preventive maintenance going back as far as June 2001.

                    According to the station's 2004 program hours per transmitter report, a few of
               the transmitters at both sites have encountered operational problems. A transmitter
               at site B, transmitter GB-2, has been offline for more than four years. However,
               that transmitter was not placed in the transmission schedule for technical reasons,
               not because of operability problems. At site A, transmitter GA-73 has not worked
               in over a year due to a failed high-voltage switch. Technicians said new parts
               arrived after six months of waiting and were used to repair the transmitter. Unfor-
               tunately, the transmitter still did not work. Additional parts were ordered and
               installed, but the transmitter has yet to return to operation. Plans are underway to
               outsource the repairs. Both sites also house three 50-kW independent sideband
               transmitters; however, none of them are in use because the technology to operate
               them is obsolete. (See Appendices C and D.)



               3
                   Subsequently, OIG learned that multiple failures led to an effort to improve GA-7's reliability.



20 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                                  UNCLASSIFIED
                                         UNCLASSIFIED



    Station management is aware of the maintenance challenges and has a pro-
posal, to be submitted to IBB, for a separate maintenance shift that will ensure that
preventive and scheduled maintenance and repairs are kept current. Given the
status of some of the transmitters, site A must call upon site B to substitute
broadcasts at least two to three days a week. Site A also contacted the Network
Control Center for substitute program-transmission assistance twice during OIG's
site visit.


    Recommendation 3: The International Broadcasting Bureau should work
    with the Greenville Transmitting Station to reestablish a mandatory preven-
    tive maintenance program and provide the resources to implement the pro-
    gram. (Action: IBB)


   The BBG said in its response to the draft of this report that the recent shift of
more transmission capacity from site A to site B has demonstrably aided the devel-
opment of a regular, preventive maintenance schedule. BBG added that the new
maintenance schedule would also improve and standardize critical, core mainte-
nance skills.


    Recommendation 4: The International Broadcasting Bureau should ensure
    that senior management at the Greenville Transmitting Station is held ac-
    countable, should the station's preventive maintenance program break down.
    (Action: IBB)


    The BBG responded that IBB Engineering and the station's senior management
were committed to developing and maintaining an effective preventive mainte-
nance program. The BBG also said IBB Engineering and the station's senior
management would monitor and evaluate the maintenance program through peri-
odic technical inspections.



IMPROVED INVENTORY CONTROLS NEEDED
    The Greenville Transmitting Station has encountered many challenges to
keeping accurate inventory records for required parts and the equipment it has in
stock. One specialist maintains the inventory for sites A and B. As parts are used,
technicians and riggers must submit an equipment maintenance report (EMR),



OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   21 .

                                         UNCLASSIFIED
                                                UNCLASSIFIED



               which enables reordering of the part and proper record keeping of the parts bal-
               ances. Although many technicians complete the form, some do not. When the
               forms are submitted for inventory use, they are matched against the existing stock,
               for reordering and balancing. Furthermore, it can take up to two days to reconcile
               the parts balances. One technician noted that, because employees are not turning
               in the forms and the length of time involved in reconciling, discrepancies have
               resulted. The technician also indicated that the 30-day waiting period from order-
               ing to receiving some parts hampers maintenance and repairs.

                    There are three software programs for managing inventory for the facility. Sites
               A and B have the Property Inventory Program, the Supply Inventory Program, and
               PRISM acquisition software, which is used to order supplies. The inventory spe-
               cialist said some of the inventory does not fall under the same system. The inven-
               tory specialist assumed the inventory management tasks of a former employee, but
               the responsibilities at two large sites have proven a daunting challenge for this
               employee, and having to use different inventory programs adds to the difficulties.



               INFORMATION TECHNOLOGY CONTROLS HAVE IMPROVED
                    Information technology (IT) management controls have improved since the
               arrival of the current station manager. According to the station's IT specialist,
               some of the technicians have made his work difficult for him in the past through
               various acts including installing and downloading personal material such as MP3s
               from the Internet, networking computers to Greenville's computer system without
               authorization, stealing memory chips out of the computer tower, and outright acts
               of sabotage on the computer hardware, such as disconnecting the cooling fans.
               The IT specialist and station management have discussed these issues and the
               specialist has received support from station management. A new mainframe/server
               plug-in has been installed to prevent downloading information from the Internet or
               viewing certain pornographic websites, which had been a problem. The IT special-
               ist also noted the program provides an audit trail of the Internet sites that employ-
               ees have visited and how long they have been there.

                    Currently, the specialist affirmed that good IT controls are in place. The plug-
               in, implemented nine months ago, is 75 percent complete. Employees are now
               aware of the IT regulations and are constantly reminded of them when they log on.
               This tighter IT controls regime has proven to be effective.




22 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                                UNCLASSIFIED
                                         UNCLASSIFIED



    Because station management and the IT specialist drafted guidelines that are
based on an IBB model that complies with the Federal Information Security Sys-
tems Act, disciplinary action can be taken against those who do not abide by the
rules.



STATION MUST CONDUCT EMERGENCY DRILLS
    The Greenville Transmitting Station has a voluminous 875-page safety plan.
All employees have indicated that they are aware of the plan, but few claim to have
actually read it. It is not clear whether all the employees are fully aware of what to
do if they need to take action. Because of its size, the plan is not practical. It is
not easy to implement, and management knows this. The station is developing a
more feasible approach. The safety and evacuation plan, part of the station's
network security program, reached its size, according to the IBB Engineering
Office of Program Support, as a pending project for IBB, not just for Greenville.
Most of the staff said they felt relatively safe at the station; however, most of the
technicians expressed concerns regarding manpower coverage when conducting
maintenance and repairs.

     Station management said it has concentrated on things like instruction on
cardiopulmonary resuscitation, rather than fire and emergency drills. No drills have
been conducted at the station, although the Greenville Transmitting Station Safety
Program Manual states that a variety of safety drills4 are to be held annually,
periodically, and randomly. Current management plans to upgrade all safety proce-
dures for the station and to develop a practical plan specific to the Greenville
station's needs.


    Recommendation 5: The International Broadcasting Bureau should ensure
    that the Greenville Transmitting Station establishes and implements proce-
    dures for quarterly fire drills. (Action: IBB)




4
 The drills indicated in the manual are fire (periodically), bomb and plant evacuation periodically), medical
response (annually with training) and general awareness of all station drills during regular training.




OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   23 .

                                         UNCLASSIFIED
                                                UNCLASSIFIED



                   After the inspection, the BBG said Transmitting Station Instruction 110 does
               require fire drills, but not on a quarterly basis. Because BBG subjects itself to a
               certain degree of risk when it allows energized equipment to run unattended in an
               industrial facility, IBB's policy calls for fire drills and mandatory training on fire
               fighting and detecting unsafe conditions.




24 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                                UNCLASSIFIED
                                         UNCLASSIFIED





                          RECOMMENDATIONS

Recommendation 1: The International Broadcasting Bureau should decide on the
  future use of the Greenville Transmitting Station's sites A and B. (Action: IBB)

Recommendation 2: The International Broadcasting Bureau should conduct a
  review to determine whether the transmitters at the Greenville Transmitting Sta-
  tion should be replaced with an automated system. (Action: IBB)

Recommendation 3: The International Broadcasting Bureau should work with the
  Greenville Transmitting Station to reestablish a mandatory preventive mainte-
  nance program and provide the resources to implement the program. (Action:
  IBB)

Recommendation 4: The International Broadcasting Bureau should ensure that
  senior management at the Greenville Transmitting Station is held accountable,
  should the station's preventive maintenance program break down. (Action:
  IBB)

Recommendation 5: The International Broadcasting Bureau should ensure that
  the Greenville Transmitting Station establishes and implements procedures for
  quarterly fire drills. (Action: IBB)




OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   25 .

                                         UNCLASSIFIED
                                                UNCLASSIFIED





26 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                                UNCLASSIFIED
                                         UNCLASSIFIED





                         PRINCIPAL OFFICERS


                                                           Name                             Arrival Date


Station Manager                                            Wilfred Cooper                  Sept. 20, 2004


Transmitter Plant Supervisor                               Craig Silman                     Aug. 16, 2004


Facilities Supervisor                                      Walter Konetsco                   Jan. 26, 2004




OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   27 .

                                         UNCLASSIFIED
                                                UNCLASSIFIED





28 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                                UNCLASSIFIED
                                         UNCLASSIFIED





                                ABBREVIATIONS

BBG                             Broadcasting Board of Governors
EEO                             Equal Employment Opportunity
EMR                             Equipment maintenance report
FSO                             Foreign Service officer
IBB                             International Broadcasting Bureau
IMR                             Inspection and maintenance report
IT                              Information technology
kW                              Kilowatt
MOA                             Manual of Operations and Administration
OIG                             Office of Inspector General
RIF                             Reduction in force
SIS                             Satellite Interconnect System
TSI                             Transmitting station instructions
USIA                            United States Information Agency
VOA                             Voice of America




OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   29 .

                                         UNCLASSIFIED
                                                UNCLASSIFIED





30 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                                UNCLASSIFIED
                                         UNCLASSIFIED





                                      APPENDIX A

                             BROADCAST MATRIX AT SITE A





OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   31 .

                                         UNCLASSIFIED
                                                UNCLASSIFIED





32 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                                UNCLASSIFIED
                                         UNCLASSIFIED





                                      APPENDIX B
                             BROADCAST MATRIX AT SITE B





OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   33 .

                                         UNCLASSIFIED
                                                UNCLASSIFIED





34 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                                UNCLASSIFIED
                                         UNCLASSIFIED





                                      APPENDIX C
          PROGRAM HOURS PER TRANSMITTER - GREENVILLE

          TRANSMITTING STATION (SITE A) FY 2000-2004





GA-7 Transmitter had multiple failures in 2003 and all work has been suspended until repairs can be

5

made.




OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   35 .

                                         UNCLASSIFIED
                                                UNCLASSIFIED





36 . OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005

                                                UNCLASSIFIED
                                         UNCLASSIFIED





                                      APPENDIX D

           PROGRAM HOURS PER TRANSMITTER - GREENVILLE

            TRANSMITTING STATION (SITE B) FY 2000-2004





6
  GB-07 showed a drastic decline in use in 2001 and continued to do so in 2002. It was not operational in
2003, but used minimally in 2004. OIG later learned that the transmitter failed in November 2001 due to a
steam explosion of the Plate Amplifier tube, possibly caused by a faulty water flow interlock sensor or
defective vacuum tube water valve. IBB Engineering funded the GB-7 repair project in 2003. Greenville
Transmitting Station technicians successfully repaired the transmitter and it was returned to service.
7
 GB-08 did not broadcast in 2003. OIG learned that the original high voltage plate transformer failed and
a manufacturing firm was awarded a contract to fabricate a new transformer. The new transformer then
failed due to a wiring installation error caused by the electrical contractor. The transformer was successfully
repaired and GB-08 was returned to service.



OIG Report No. ISP-IB-05-69, The Int’l Broadcasting Bureau’s Greenville, North Carolina, Transmitting Station, Aug. 2005   37 .

                                         UNCLASSIFIED
